App. 1
2019 WL 6877909
Supreme Court of Oklahoma.
VIDEO GAMING TECHNOLOGIES, INC.,
Plaintiff/Appellant,
v.
ROGERS COUNTY BOARD OF TAX ROLL
CORRECTIONS, a Political Subdivision;
Cathy Pinkerton Baker, Rogers County Treasurer,
in Her Official Capacity; and Scott Marsh, Rogers
County Assessor, in His Official Capacity,
Defendants/Appellees.
No. 117,491
|
FILED 12/17/2019
ON APPEAL FROM THE DISTRICT COURT
OF ROGERS COUNTY, STATE OF OKLAHOMA;
HONORABLE SHEILA A. CONDREN,
DISTRICT JUDGE
¶0 Plaintiff brought claims for relief from assessment of ad valorem taxes on electronic gaming equipment owned by Plaintiff and leased to the Cherokee
Nation through its business entity. Both parties sought
summary judgment. The district court rendered summary judgment in Defendant’s favor, finding that ad
valorem taxes were not preempted. We retained Plaintiff ’s appeal.

App. 2
ORDER OF THE DISTRICT COURT
IS REVERSED, CAUSE REMANDED.
Attorneys and Law Firms
Elizabeth A. Price and Kurt M. Rupert, Hartzog Conger Cason & Neville, and Kevin B. Ratliff, Ratliff Law
Firm, Oklahoma City, OK, for Appellant.
Matthew J. Ballard, District Attorney, Rogers County
District Attorney’s Office, Claremore, OK, for Appellee.
OPINION
DARBY, V.C.J.,
¶1 On appeal, Video Gaming Technologies, Inc.
(“VGT”), Plaintiff/Appellant, contends that the district
court improperly granted summary judgment to Rogers County Board of Tax Roll Collections (“Board”), the
Rogers County Treasurer, and the Rogers County Assessor, Defendants/Appellees (together “County”). The
questions before this Court are whether the district
court properly denied VGT’s motion for summary judgment and properly granted County’s counter-motion
for summary judgment. We answer both in the negative.
I.

STANDARD OF REVIEW

¶2 Summary judgment settles only questions of
law, therefore, we review de novo the grant thereof. Am.
Biomedical Grp. v. Techtrol, Inc., 2016 OK 55, ¶ 2, 374
P.3d 820, 822. “Summary judgment will be affirmed

App. 3
only if the appellate court determines that there is no
dispute as to any material fact and that the moving
party is entitled to judgment as a matter of law.” Horton v. Hamilton, 2015 OK 6, ¶ 8, 345 P.3d 357, 360; see
also 12 O.S.2011, § 2056(C). Under this standard, we
confine our review to the limited, undisputed, material
facts. Techtrol, 2016 OK 55, ¶ 3, 374 P.3d at 823. We do
not consider County’s factual allegations included in
its paperwork that County failed to designate as disputed or undisputed material facts or support with evidentiary materials in the district court. See id.; see
also Frey v. Independence Fire and Cas. Co., 1985 OK
25, ¶ 6, 698 P.2d 17, 20
II.

PROCEDURAL HISTORY

¶3 In December 2012, VGT filed a complaint
with Board protesting the 2011 and 2012 assessment
of ad valorem taxes. VGT claimed the electronic gaming equipment it leased exclusively to Cherokee Nation
(Nation) for gaming was preempted from taxation under federal law. At that time, VGT submitted a copy
of Mashantucket Pequot Tribe v. Town of Ledyard
(Mashantucket I), No. 3:06CV1212(WWE), 2012 WL
1069342 (D. Conn. Mar. 27, 2012) (finding preemption
of imposition of ad valorem tax on gaming equipment),
rev’d, 722 F.3d 457 (2d Cir. 2013). In December 2013,
VGT timely filed a complaint with Board protesting
the 2013 ad valorem tax assessments for the same reason. In April 2014, Board denied VGT’s complaints by
letter.

App. 4
¶4 VGT timely appealed Board’s decision, filing
a petition for review in Rogers County District Court.
VGT sought summary judgment claiming federal
preemption of ad valorem taxes under the Indian Gaming Regulatory Act (IGRA), 25 U.S.C. §§ 2701-2721
(2018), Indian Trader Statutes, and federal case law.
VGT set forth a list of undisputed material facts which
it supported with declarations1 from VGT’s Assistant
General Counsel and an attorney for Nation; it also attached copies of its 2012 and 2013 complaints and
Board’s 2014 denial letter.
¶5 County filed a response and counter-motion
for summary judgment, urging that ad valorem taxation of the property was not preempted or barred.
County declared that “the relevant facts in this case
are not in dispute,” making summary judgment appropriate. County then set out its own statement of undisputed material facts. Later in its counter-motion for
summary judgment and response, County argued:
VGT has not alleged or provided evidence that it
actually passes off the costs of its taxes onto the
Tribe, but merely asserts a vague notion that its
lease agreements are “based upon a variety of
competing economic factors” and include costs
that are “balanced to arrive at the lease terms.”
This bald assertion supposedly supports VGT’s
contention that the economic burden caused by
the taxes would ultimately fall on the Tribe, but

1

An unsworn declaration, signed under penalty of perjury,
may be used in place of an affidavit. 12 O.S.2011, § 426.

App. 5
VGT has advanced no evidence that this is actually the case.
Def ’t’s Resp. to VGT’s Mot. for S.J., Counter-Mot. for
S.J., and Br. in Supp., filed May 31, 2018, at 10. County,
however, failed to support this assertion with any evidence to dispute the evidence put forth by VGT. County
attached a copy of Mashantucket Pequot Tribe v. Town
of Ledyard (Mashantucket II), 722 F.3d 457 (2d Cir. Jul.
15, 2013) (reversing Mashantucket I and finding no
preemption), an affidavit from the Rogers County Assessor, copies of the complaints and denial, and a statement of the taxes currently assessed against VGT.
¶6 On September 27, 2018, the district court denied VGT’s motion and sustained County’s counter-motion for summary judgment. The district court found
the rationale in Mashantucket II persuasive and held
that the “State of Oklahoma’s ad valorem tax statutes
are not preempted or barred by the Indian Trader Statutes, the Indian Gaming Regulatory Act, or pursuant
to the balancing test set forth by the United States
Supreme Court in White Mountain Apache Tribe v.
Bracker,” 448 U.S. 136, 100 S. Ct. 2578, 65 L. Ed. 2d
665 (1980). VGT timely appealed under Oklahoma Supreme Court Rule 1.36 and filed a motion that we retain the appeal, which we granted. On appeal, VGT
argues that the district court erred in (1) relying on
Mashantucket II to grant County’s counter-motion for
summary judgment and (2) failing to grant VGT’s motion for summary judgment because imposition of ad
valorem taxes is preempted by IGRA and the Bracker
balancing test.

App. 6
III.

UNDISPUTED MATERIAL FACTS

¶7 VGT is a non-Indian Tennessee corporation
authorized to do business in Oklahoma. VGT owns and
leases electronic gaming equipment to Cherokee Nation Entertainment, LLC (CNE), a business entity of
Nation. Nation is a federally-recognized Indian tribe
headquartered in Tahlequah, Oklahoma. CNE owns
and operates ten gaming facilities on behalf of Nation.
¶8 CNE and VGT negotiated and executed their
initial lease agreement, and all subsequent amendments, on tribal trust land. The lease agreements are
based on a variety of competing economic factors and
include consideration of several costs that are balanced to arrive at the lease terms. The equipment lease
agreement states that VGT supplies the gaming equipment, software, and related services to CNE. The gaming equipment that VGT leases to CNE is located on
tribal trust land in Rogers County and is essential to
Nation’s gaming operations.
¶9 The Rogers County Assessor assesses ad valorem tax on business personal property located in the
county on the first of the year, pursuant to title 68, section 2831 of the Oklahoma Statutes.2 In 2011, 2012,
2

A. All property, both real and personal, having an
actual, constructive or taxable situs in this state,
shall, except as hereinafter provided, be listed and assessed and taxable in the county, school districts, and
municipal subdivision thereof, where actually located
on the first day of January of each year. . . .
68 O.S.2011, § 2831(A).

App. 7
and 2013, County assessed ad valorem taxes on the
gaming equipment owned by VGT.3 County based its
assessment on the value of the property and did not
take into consideration use, possession, or specific location of the property.
¶10 Tax revenue from ad valorem assessments,
like those imposed on VGT’s gaming equipment, help
fund the operation of Rogers County government,
schools, law enforcement, health services, roads, and
other government services within Rogers County. The
economic burden caused by the assessment of ad valorem taxes, however, would ultimately fall on Nation
because it would impact the overall costs of providing
the gaming machines to Nation and therefore the price
for which VGT would agree to lease them.
IV.

ANALYSIS

¶11 VGT argues that taxation of its gaming
equipment is preempted by IGRA and Bracker because
the property is located on tribal trust land under a
lease to Nation for use in its gaming operations.

3

VGT was assessed and paid ad valorem taxes on the gaming equipment from 2005-2010. The Rogers County Assessor has
continued to assess ad valorem tax on VGT’s gaming equipment
since 2013 and VGT has continued to file complaints for all further ad valorem taxes. Board has not taken any action on the further complaints while awaiting the outcome of this matter.

App. 8
A. Federal Preemption of
Taxation of Non-Indians on Indian Land
¶12 The location of property on tribal trust land
is not a per se bar to taxation because the legal incidence of the ad valorem tax falls on the non-Indian lessor, not on Nation. Okla. Tax Comm’n v. Chickasaw
Nation, 515 U.S. 450, 453, 459, 115 S. Ct. 2214, 132
L. Ed. 2d 400 (1995); State ex rel. Edmondson v. Native
Wholesale Supply, 2010 OK 58, ¶ 39, 237 P.3d 199, 212213. When a state or county seeks to impose a nondiscriminatory tax on non-Indians on tribal land, there is
no rigid preemption rule, rather we must apply a flexible analysis to determine if taxation is proper. See
Bracker, 448 U.S. 136, 100 S.Ct. 2578; see also Ramah
Navajo Sch. Bd. v. Bureau of Revenue of N.M., 458 U.S.
832, 102 S. Ct. 3394, 73 L. Ed. 2d 1174 (1982); see also
Cotton Petroleum Corp. v. New Mexico, 490 U.S. 163,
109 S. Ct. 1698, 104 L. Ed. 2d 209 (1989). Courts must
perform a “particularized examination of the relevant
state, federal, and tribal interests” which is not controlled by standards of preemption from other areas of
law. Ramah Navajo School Bd., 458 U.S. at 838, 102
S.Ct. 3394; see also Bracker, 448 U.S. at 142, 144-45,
100 S.Ct. 2578.
¶13 In examining federal treaties and statutes,
we must look to congressional intent to preempt state
taxation of non-Indians on tribal land, while considering the broad underlying policies and history of tribal
sovereignty as a “backdrop.” Cotton Petroleum, 490 U.S.
at 176, 109 S.Ct. 1698; see also Bracker, 448 U.S. at 142,
144-45, 100 S.Ct. 2578. Preemption is not limited to

App. 9
cases in which Congress has expressly preempted the
state tax. Cotton Petroleum, 490 U.S. at 176-77, 109
S.Ct. 1698. The county seeking to impose a tax on nonIndians on tribal land must be able to identify regulatory functions or services the county performs to justify the assessment—interest in raising revenues is
not enough. Bracker, 448 U.S. at 148-49, 150, 100 S.Ct.
2578. Courts must follow the guiding principle to construe “federal statutes and regulations relating to
tribes and tribal activities” generously in order to comport with “traditional notions of sovereignty and with
the federal policy of encouraging tribal independence.”
Ramah Navajo Sch. Bd., 458 U.S. at 846, 102 S.Ct.
3394; Bracker, 448 U.S. at 143-44, 100 S.Ct. 2578.
¶14 In Bracker, the U.S. Supreme Court looked
to the comprehensive and pervasive nature of the federal regulation of harvesting timber, the number of policies underlying the federal scheme which were
threatened by state regulation, the tribe’s sovereignty
over their land, the fact that it was undisputed that the
economic burden would ultimately fall on the tribe,
and the state’s inability to identify any regulatory
function or service the state performed that would justify the taxes except a generalized interest in raising
revenue. Id. at 145-51, 100 S. Ct. 2578. Ultimately, the
Court found preemption of state motor carrier license
and use fuel taxes on a non-Indian logging company’s
activities on Indian land. Id. at 151, 100 S. Ct. 2578.
¶15 Two years later, the U.S. Supreme Court applied that analysis before finding preemption of a state
gross-receipts tax imposed on a non-Indian contracting

App. 10
firm constructing school facilities on tribal land.
Ramah Navajo Sch. Bd., 458 U.S. 832, 102 S.Ct. 3394.
The Court determined federal regulations regarding
construction of Indian schools were both comprehensive and pervasive. Id. at 839-42, 102 S. Ct. 3394. The
Court noted that while the burden nominally fell on
the non-Indian contractor, it impeded the clearly expressed federal interests by depleting the funds available for construction. Id. at 842, 102 S. Ct. 3394. The
Court again found the state’s ultimate justification
was a desire to increase revenue, without showing a
specific, legitimate regulatory interest to justify the
imposition of the tax. Id. at 843-845, 102 S. Ct. 3394.
¶16 In 1989, the U.S. Supreme Court found a
non-Indian lessee oil and gas company was subject to
severance taxes from both the tribe and the state for
minerals extracted from their leases on Indian land.
Cotton Petroleum, 490 U.S. at 168-69, 109 S.Ct. 1698.
The Court considered the history of the State’s ability
to tax non-Indian lessee’s on-reservation oil production
as well as one of the purposes of the act being to provide tribes with “badly needed revenue, but [found] no
evidence . . . that Congress intended to remove all barriers to profit maximization.” Id. at 173, 180, 109 S. Ct.
1698. The Court determined that the state also regulated the field, the state provided substantial services
to the tribe and the company in question, and there
was no economic burden on the tribe from the company’s payment of taxes. Id. at 185-86, 109 S. Ct. 1698.
¶17 The Court distinguished the case from
Bracker and Ramah Navajo School Board because

App. 11
the other cases “involved complete abdication or noninvolvement of the State in the on-reservation activity.” Id. at 185, 109 S. Ct. 1698. The Court determined
that there is no proportionality requirement to the justification of taxes for States compared to the services
provided. Id. The Court acknowledged that the taxes
had a “marginal effect on the demand for on-reservation leases, the value to the Tribe of those leases, and
the ability of the Tribe to increase its tax rate,” but
found that any impairment to the federal policies in
play was too indirect and insubstantial to support
claims of preemption. Id. at 187, 109 S. Ct. 1698
B.

Federal IGRA Case Law

¶18 In 2001, the Eighth Circuit analyzed IGRA’s
preemption of state law claims in a dispute between a
non-Indian general contractor and non-Indian subcontractor. Casino Res. Corp. v. Harrah’s Entm’t, Inc.,
243 F.3d 435, 439 (8th Cir. 2001). Resolution of the dispute required review of a contract terminating a gaming management arrangement between one of the
parties and a tribal entity. Id. at 438. The Eighth Circuit noted that “[n]ot every contract that is merely peripherally associated with tribal gaming is subject to
IGRA’s constraints.” Id. at 439. The court held that “[i]t
is a stretch to say that Congress intended to preempt
state law when there is no valid management contract
for a federal court to interpret, when the Nation’s
broad discretion to terminate management contracts is
not impeded, and when there is no threat to the Nation’s sovereign immunity or interests.” Id. at 440.

App. 12
¶19 In 2008, the Ninth Circuit addressed
whether IGRA preempted state sales tax on construction materials purchased by a non-Indian sub-contractor from a non-Indian vendor and delivered to Indian
land for casino construction. Barona Band of Mission
Indians v. Yee, 528 F.3d 1184, 1186 (9th Cir. 2008). The
court weighed heavily the parties’ attempt to manipulate tax laws and noted that the taxed materials “could
be used for a multitude of purposes unrelated to gaming.” Id. at 1191-93. The court found that “IGRA’s comprehensive regulation of Indian gaming does not
occupy the field with respect to sales taxes imposed on
third-party purchases of equipment used to construct
gaming facilities.” Id. at 1193.
¶20 In 2013, the Second Circuit determined ad
valorem taxation on gaming equipment was not
preempted by IGRA. Mashantucket II, 722 F.3d at 470.
The court compared the ad valorem tax on gaming
equipment to Barona Band and Casino Resource, where
the generally-applicable laws were not preempted by
IGRA’s occupation of the governance of the gaming
field, but were merely peripherally associated. 722 F.3d
at 470. The court found that “mere ownership of slot
machines by the vendors does not qualify as gaming,
and taxing such ownership therefore does not interfere
with the ‘governance of gaming.’ ” Id. (emphasis original).
¶21 In its Bracker analysis, the Mashantucket II
court stated that “[n]othing within IGRA reveals
congressional intent to exempt non-Indian suppliers
of gaming equipment from generally applicable state

App. 13
taxes that would apply in the absence of the legislation.” 722 F.3d at 473. The court determined that
“IGRA presented an opportunity for Congress to preempt taxes exactly like this one; Congress chose to
limit the scope of IGRA’s preemptive effect to the ‘governance of gaming.’ ” Id. (quoting Gaming Corp. of Am.
v. Dorsey, 88 F.3d 536, 550 (8th Cir. 1996)). The court
concluded:
We recognize that this is arguably a close case.
However, the Tribe’s generalized interests in
sovereignty and economic development are
not significantly impeded by the State’s generally-applicable tax; neither are the federal
interests protected in IGRA. The Town has
moderate economic and administrative interests at stake, and the affront to the State’s
sovereignty on one hand approximates the affront to the Tribe’s sovereignty on the other.
The balance of equities here favors the Town
and State.
Mashantucket II, 722 F.3d at 476-77.
¶22 In 2014, the United States Supreme Court
considered whether a tribe’s off-reservation gaming activities were covered under IGRA. Michigan v. Bay
Mills Indian Cmty., 572 U.S. 782, 134 S. Ct. 2024, 188
L. Ed. 2d 1071 (2014). The Court noted that “numerous
provisions of IGRA show that ‘class III gaming activity’
means just what it sounds like—the stuff involved in
playing class III games.” Bay Mills, 572 U.S. at 792, 134
S.Ct. 2024. The Court noted multiple phrases in IGRA
that “make perfect sense if ‘class III gaming activity’

App. 14
is what goes on in a casino—each roll of the dice and
spin of the wheel”—and together signify that the “gaming activity is the gambling in the poker hall not the
proceedings of the off-site administrative authority.”
Id. The Court explained that two sections of IGRA describe the “power to ‘clos[e] a gaming activity’ for ‘substantial violation[s]’ of law—e.g., to shut down crooked
blackjack tables, not the tribal regulatory body meant
to oversee them.” Id.
¶23 Since Bay Mills, the Tenth Circuit addressed
the question of jurisdiction over tort claims arising out
of IGRA. Navajo Nation v. Dalley, 896 F.3d 1196, 1200
(10th Cir. 2018), cert. denied sub nom. McNeal v. Navajo Nation, ___ U.S. ___, 139 S. Ct. 1600, 203 L. Ed. 2d
755 (2019). The court concluded that “Class III gaming
activity relates only to activities actually involved in
the playing of the game, and not activities occurring in
proximity to, but not inextricably intertwined with, the
betting of chips, the folding of a hand, or suchlike.” 896
F.3d at 1207. The court found that actions arising in
tort are not “directly related to, and necessary for, the
licensing and regulation of [gaming] activity.” Id. at
1207, 1209. The court clarified that the licensing or
regulation of gaming activity “does not relate to claims
arising out of occurrences that happen in proximity
to—but not as a result of—the hypothetical card being
dealt or chip being bet.” Id. at 1209 (citation omitted).4

4

In a footnote, the court noted that someone could potentially incur an injury from the gaming activity itself. Navajo Nation v. Dalley, 896 F.3d 1196, 1210 n.7 (10th Cir. 2018).

App. 15
¶24 Recently, the Eighth Circuit again addressed IGRA in two cases issued the same day. Flandreau Santee Sioux Tribe v. Noem, 938 F.3d 928 (8th
Cir. 2019); Flandreau Santee Sioux Tribe v. Haeder, 938
F.3d 941 (8th Cir. 2019). The court determined in Noem
that IGRA preempted the state’s imposition of a use
tax on non-Indian purchases of amenities at a casino.
Noem, 938 F.3d at 937. In Haeder, the court determined that IGRA did not preempt an excise tax on
gross receipts of a non-Indian contractor for services
performed in renovating and expanding a casino.
Haeder, 938 F.3d at 942, 947.
¶25 The Eighth Circuit stated that the phrase
“[d]irectly related to the operation of gaming activity”
is narrower than “directly related to the operation of
the Casino.” Noem, 938 F.3d at 935. The court thus determined that sale of amenities is not “directly related
to the operation of gaming activities” in order to be expressly preempted. Id. But the court found that while
the amenities are not directly related to the operation
of gaming activities, they do contribute significantly to
Consider, for example, a casino patron at a roulette
table: during the course of the game, an errant ball
flies and hits the patron in the eye, causing damage
to the patron. Or, in a different situation, a patron is
playing on a dysfunctional slot machine that electrocutes the patron, again resulting in some harm. In
both of those instances, it is at least arguable that the
patron’s injuries resulted directly from gaming activity, within the meaning of Bay Mills, i.e., “what goes on
in a casino—each roll of the dice and spin of a wheel.”
Id. (quoting Michigan v. Bay Mills Indian Cmty., 572 U.S. 782,
792, 134 S. Ct. 2024, 188 L. Ed. 2d 1071 (2014)).

App. 16
the economic success of the tribe’s class III gaming operation. Id. at 936. The court noted that the state’s taxation of amenities would raise the cost—potentially
reducing tribal revenues and detrimentally impacting
IGRA’s policies. Id. In affirming the preemption of
state use tax on non-Indian purchases of amenities at
the casino, the court found:
[t]he State’s interest in raising revenues to provide government services . . . does not outweigh
the federal and tribal interests in Class III gaming
reflected in IGRA and the history of tribal independence in gaming recognized in Cabazon. As in
Bracker, “this is not a case in which the State
seeks to assess taxes in return for governmental
functions it performs for those on whom the taxes
fall.”
Id. at 937.
¶26 In Haeder, the court considered a provision
in IGRA requiring National Indian Gaming Commission (NIGC) approval of a tribal ordinance stating that
casino construction would adequately protect the environment, public health, and safety—but noted that the
NIGC does not regulate construction activity or prescribe what adequate protection requires. Haeder, 938
F.3d at 945. The court concluded that the provision did
not preempt the state contractor excise tax, “a tax
which does not regulate or interfere with the Tribe’s
design and completion of the construction project, or
its conduct of Class III gaming.” Id. The court further
noted that, unlike the ongoing casino amenities tax in
Noem, the contractor excise tax is a one-time tax which

App. 17
“hardly implicates the relevant federal and tribal interests.” Haeder, 938 F.3d at 946. The court also found
that because the tax did not regulate casino construction or gaming activities, there were no implications to
the federal and tribal interests in IGRA. Id. Regarding
the state’s interests, the court noted that the relevant
services provided included those available to the contractor and the members of the tribe on and off-reservation. Id. at 947.
C. Bracker Analysis of Ad
Valorem Tax on Gaming Equipment
¶27 In the present case, we must (1) look to the
comprehensiveness of the federal regulations in place,
in light of the broad underlying policies and notions of
sovereignty in the area; (2) consider the number of policies underlying the federal scheme which are threatened; and (3) determine if the state is able to justify
the tax other than as a generalized interest in raising
revenue. See Bracker, 448 U.S. at 142, 144-45, 100 S.Ct.
2578.
1)

Comprehensive Legislation

¶28 IGRA was “intended to expressly preempt
the field in the governance of gaming activities on Indian lands.” S.Rep.100-446 (1988), reprinted in 1988
U.S.C.C.A.N. 3071, 3076. In creating IGRA, Congress
recognized that the extension of State jurisdiction to
Indian lands has traditionally been inimical to Indian
interests and attempted to balance the need for sound

App. 18
enforcement of gaming laws and regulations with the
strong federal interest in preserving sovereign rights
of tribal governments to regulate activities and enforce
laws on Indian lands. Id. at 3075. Congress found:
(1) numerous Indian tribes have become engaged in or have licensed gaming activities on Indian lands as a means of generating tribal
governmental revenue;
(2) Federal courts have held that section 81 of
this title requires Secretarial review of management contracts dealing with Indian gaming, but
does not provide standards for approval of such
contracts;
(3) existing Federal law does not provide clear
standards or regulations for the conduct of gaming
on Indian lands;
(4) a principal goal of Federal Indian policy is to
promote tribal economic development, tribal selfsufficiency, and strong tribal government; and
(5) Indian tribes have the exclusive right to regulate gaming activity on Indian lands if the gaming activity is not specifically prohibited by
Federal law and is conducted within a State which
does not, as a matter of criminal law and public
policy, prohibit such gaming activity.
25 U.S.C. § 2701.
¶29 Congress adopted IGRA in 1988 to provide
for the operation and regulation of gaming by Indian
tribes. Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 48,
116 S. Ct. 1114, 134 L. Ed. 2d 252 (1996). IGRA divides

App. 19
gaming on Indian lands into three classes, and it provides a different regulatory scheme for each one. Id.
Class II gaming is bingo, electronic or otherwise, and
card games that are either explicitly authorized by the
State or not explicitly prohibited and are played elsewhere in the State. 25 U.S.C. § 2703(7). Class III gaming is heavily regulated and is defined as all gaming
which is not included in class I or II; it includes slot
machines, electronic games of chance, casino games,
banking card games—such as baccarat, chemin de fer,
or blackjack—and others. Seminole Tribe, 517 U.S. at
48, 116 S.Ct. 1114; 25 U.S.C. § 2703(7)(B),(8).
¶30 Congress declared IGRA’s purpose included
providing regulation from corrupting influences, ensuring the tribe is the primary beneficiary of the operation, and assuring that gaming is conducted
fairly and honestly, by both operator and players. 25
U.S.C. § 2702.5 In accordance with that, IGRA provided
5

IGRA’s purpose is:
(1) to provide a statutory basis for the operation of
gaming by Indian tribes as a means of promoting
tribal economic development, self-sufficiency, and
strong tribal governments;
(2) to provide a statutory basis for the regulation of
gaming by an Indian tribe adequate to shield it from
organized crime and other corrupting influences, to
ensure that the Indian tribe is the primary beneficiary of the gaming operation, and to assure that gaming is conducted fairly and honestly by both the
operator and players; and
(3) to declare that the establishment of independent
Federal regulatory authority for gaming on Indian
lands, the establishment of Federal standards for

App. 20
comprehensive guidance on gaming. IGRA mandates
that tribes may only conduct Class III gaming when
the tribe adopts an ordinance or resolution that satisfies certain statutorily prescribed requirements and it
is conducted in accordance with a negotiated TribalState compact. Seminole Tribe, 517 U.S. at 49, 116 S.Ct.
1114; 25 U.S.C. § 2710(d)(1).6 The State is able to assess necessary amounts under the compact in order to
defray associated regulation costs for Class III gaming.
Id. § 2710(d)(3). Although Nation’s compact with the
State is not part of the record, the model state compact
provides extensive regulation requiring inspection of
gaming equipment to ensure the gaming is conducted
fairly and honestly. 3A O.S.2011, § 281 Part 4(B),
5(C),(M), 8(A). It also mandates that companies that
lease over twenty-five thousand dollars a year of
equipment to a tribe must be licensed by the tribal
compliance agency, and requires payment of annual assessments for oversight of the gaming equipment. Id.
Part 10(B)(1), 11(B).
gaming on Indian lands, and the establishment of a
National Indian Gaming Commission are necessary
to meet congressional concerns regarding gaming and
to protect such gaming as a means of generating tribal
revenue.
25 U.S.C. § 2702 (2018).
6
Any Indian tribe having jurisdiction over the Indian lands
upon which a class III gaming activity is being conducted,
or is to be conducted, shall request the State in which such
lands are located to enter into negotiations for the purpose
of entering into a Tribal-State compact governing the conduct of gaming activities.
25 U.S.C. § 2710 (2018) (emphasis added).

App. 21
¶31 IGRA also established the NIGC and gave it
power to close gaming activities; adopt regulations for,
levy, and collect civil fines; establish the rate of fees;
approve tribal ordinances or resolutions regulating
class II and III gaming; and approve management contracts. 25 U.S.C. §§ 2703-06, 2710-11, 2713. The NIGC
also has power to establish fees to be paid by each
“gaming operation that conducts . . . a class III gaming
activity that is regulated by this chapter.” Id. § 2717(a).
IGRA allows a tribe to adopt a resolution and submit
it to the Commission to “authorize any person or entity
to engage in, a class III gaming activity on Indian
lands of the Indian tribe.” Id. § 2710(d)(2)(A). IGRA
further requires independent audits for contracts related to Class II or III gaming for supplies, services, or
concessions in contracted amounts in excess of $25,000
annually. Id. § 2710(b)(2)(D),(d)(1)(A)(ii).
i) Gaming Equipment versus Gaming Activity
¶32 We find IGRA’s regulations governing gaming are comprehensive and pervasive. Before we go further in the analysis, however, we must first address
whether for purposes of IGRA there is a difference in
owning gaming equipment used exclusively for tribal
gaming versus engaging in gaming activity. IGRA itself does not expressly distinguish the game from the
equipment on which it is played. Nor has the U.S. Supreme Court. While Bay Mills focused on the action rather than the equipment—describing gaming as the
“act of throwing the dice”—it is clear that regulation of
gaming equipment is encompassed under IGRA in

App. 22
order to prevent corruption. If regulation of traditional
gaming equipment, such as preventing crooked blackjack tables, is necessary—regulation of electronic gaming equipment, which has much greater potential for
abuse, seems that much more important.
¶33 IGRA was clearly intended to provide oversight of gaming equipment to prevent corruption. But,
the Second Circuit determined that gaming equipment
is somehow peripheral or tangential to gaming and
thus distinguished gaming equipment from gaming in
order to find taxation of its ownership was not governed by IGRA’s express preemption of the field of
“governance of gaming.” The Second Circuit also confused the Bracker analysis when it stated that “[w]hile
IGRA seeks to limit criminal activity at the casinos,
nothing in Connecticut’s tax makes it likely that Michael Corleone will arrive to take over the Tribe’s operations.” Mashantucket II, 722 F.3d at 473. The fact
that the specific tax in question does not infringe on a
purpose of IGRA, does not remove the applicable
stated purpose of IGRA or its importance.
¶34 Unlike Barona Band, the gaming equipment
in this location cannot be used for anything but gaming. Barona Band, 528 F.3d at 1191-93. The ad valorem
tax would not apply to this gaming equipment in the
absence of IGRA, because the gaming equipment is
only located in Rogers County due to its use in Indian
gaming activities. And prior to IGRA, mere possession
of the gaming equipment on tribal trust land would
have been illegal. See 15 U.S.C. § 1175(a) (2018).

App. 23
¶35 Mashantucket II held that “this is arguably
a close case,” 722 F.3d at 476, however, we disagree.
Here, the ad valorem tax is assessed against the owner
of property located in the county. Focusing only on the
ownership of the property separate from the property
itself—especially in this case where the property
would not be located in the county but for its possession by Nation for its exclusive leased use in Indian
gaming—would be incongruous with Bracker and its
progeny. While ownership of gaming equipment does
not automatically subject it to IGRA, when the gaming
equipment is used exclusively in a tribal gaming operation, such as with Nation, we find it is inextricably
intertwined with IGRA gaming activities such that it
is absolutely directly related to and necessary for the
licensing and regulation of gaming activity. See Dalley,
896 F.3d at 1207.
¶36 Mashantucket II also ignored the U.S. Supreme Court’s guidance that courts should err toward
Indians on questions of preemption. Ramah Navajo
Sch. Bd., 458 U.S. at 846, 102 S.Ct. 3394; Bracker, 448
U.S. at 143-44, 100 S.Ct. 2578. Unlike the situations in
Casino Resource and Barona Band, gaming equipment
is not tangential to gaming. Rather, it is a sine qua non
of gaming. Due to the United States Supreme Court’s
clear comments about the nature of gaming activities,
and the Court’s clear guidance to construe federal statutes relating to tribal activity generously, we find
Mashantucket II unpersuasive.

App. 24
2) Federal Policies Threatened by Ad
Valorem Taxation of Gaming Equipment
¶37 It is an undisputed fact that the burden of
the ad valorem taxes will ultimately fall on Nation.
Due to the success of Nation’s gaming enterprise, the
passed on cost will not threaten the purpose of Nation
being the primary beneficiary of the gaming operation.
Title 68, section 3104 of the Oklahoma statutes, however, allows County to seize property when ad valorem
taxes are not paid. 68 O.S.2011, § 3104. Thus, County’s
remedy for collection of delinquent taxes would directly affect the tribe, impact its gaming operation, and
severely threaten the policies behind IGRA—including
Nation’s sovereignty over its land. See Wyandotte Nation v. Sebelius, 443 F.3d 1247 (10th Cir. 2006) (tribal
sovereignty outweighs a state’s interest in enforcing its
laws to the extent of intruding onto tribal land and
seizing casino equipment, files, and proceeds).
3)

County’s Justification for Taxation

¶38 County argues that ad valorem taxation is
justified to ensure integrity and uniform application of
tax law. County also justifies the tax by claiming, without additional supporting evidence, that the money is
vital to them. County further states that the disputed
taxes fund services it provides to the county at large.
¶39 County does not regulate gaming or gaming equipment in any way. Unlike Cotton Petroleum,
County has not shown it provides any regulatory functions or services to VGT, the out-of-state company, to

App. 25
justify its taxation of equipment which is only located
in Rogers County for use in Nation’s gaming enterprise. See Cotton Petroleum, 490 U.S. at 185-186, 109
S.Ct. 1698; see also Bracker, 448 U.S. at 148-49, 100
S.Ct. 2578. Like Ramah Navajo School Board, it appears that County’s interest is primarily raising revenue without providing specific regulatory functions or
services to justify it. Ramah Navajo Sch. Bd., 458 U.S.
at 843-45, 102 S.Ct. 3394. The U.S. Supreme Court has
said that desire for increased revenue is not enough,
instead basing justification on what the state or county
provides to the entity in exchange for taxation.
Bracker, 448 U.S. at 150, 100 S.Ct. 2578. County has
not shown any nexus between the services it provides
through ad valorem taxation and services that VGT receives on-or-off tribal land. County’s provision of services to other members of the county does not justify
imposition of the tax which burdens the federal interests in IGRA. See Ramah Navajo Sch. Bd., 458 U.S. at
844, 102 S.Ct. 3394. Like Bracker, “this is not a case in
which the [County] seeks to assess taxes in return for
governmental functions it performs for those on whom
the taxes fall.” Bracker, 448 U.S. at 150, 100 S.Ct. 2578.
¶40 County’s argument regarding uniform application of the law also fails; Oklahoma also already has
use exemptions for ad valorem taxation that require
County to consider property use in certain circumstances. Okla. Const. art. 10, § 6; 68 O.S.2011, §§ 2887,
2889; State ex rel. Cartwright v. Dunbar, 1980 OK 15,
¶10, 618 P.2d 900, 904-905 (use is the determinative
factor for questions of exemption from ad valorem

App. 26
taxes for religious or charitable question use) (quoting
State ex rel. City of Tulsa v. Mayes Cty. Treasurer, 1935
OK 1027, ¶ 36, 174 Okla. 286, 51 P.2d 266); Okla. Indus. Auth. v. Barnes, 1988 OK 98, ¶ 16, 769 P.2d 115,
120. Further, there are other statutory considerations
of use for determination of fair market value for taxation. See 68 O.S.2011, § 2817. Requiring County to consider use in this situation is not an unfair burden on
its enforcement of tax laws.
¶41 Gaming equipment is not peripheral to gaming. Based off the U.S. Supreme Court’s interpretation
of gaming in IGRA and its further admonishment to
interpret federal statutes regarding tribes generously,
we find that gaming equipment is a sine qua non for
gaming and thus under IGRA. The comprehensive regulations of IGRA occupy the field with respect to ad
valorem taxes imposed on gaming equipment used exclusively in tribal gaming. The state remedy for nonpayment also acts as an obstacle to the accomplishment and execution of the full purpose and objectives
of Congress. See Gade v. Nat’l Solid Wastes Mgmt.
Ass’n, 505 U.S. 88, 98, 112 S. Ct. 2374, 120 L. Ed. 2d 73
(1992). Due to the comprehensive and pervasive nature of IGRA, the number of federal policies threatened, Nation’s sovereignty, and County’s lack of
justification other than as a generalized interest in
raising revenue, we find that taxation of gaming equipment used exclusively in tribal gaming is preempted.

App. 27
V.

CONCLUSION

¶42 Summary judgment is only affirmed if there
is no dispute as to any material fact and the party is
entitled to judgment as a matter of law. The district
court erred in relying on Mashantucket II and not considering the more recent guidance of the U.S. Supreme
Court in Bay Mills. Based on this erroneous conclusion
of law, we find summary judgment against VGT was
improper.
¶43 Due to the comprehensive nature of IGRA’s
regulations on gaming, the federal policies which
would be threatened, and County’s failure to justify the
tax other than as a generalized interest in raising revenue, we find that ad valorem taxation of gaming
equipment here is preempted. We reverse the order of
summary judgment and we remand the matter to the
district court to enter an appropriate order of summary
judgment for VGT.
ORDER OF THE DISTRICT COURT IS REVERSED, CAUSE REMANDED.
Gurich, C.J., Darby, V.C.J., Kauger, Winchester, Edmondson, Colbert and Combs, JJ.—concur
Kane, J.—not voting

App. 28
IN THE DISTRICT COURT OF ROGERS COUNTY
STATE OF OKLAHOMA
Video Gaming Technologies, Inc., )
)
Petitioner,
)
vs.
)
)
Rogers County Board of Tax
)
Roll Corrections, a Political
) Case No.
Subdivision; Cathy Pinkerton
) CJ-2014-155
Baker, Rogers County
)
Treasurer, in Her Official
)
Capacity; and Scott Marsh,
)
Rogers County Assessor,
)
in His Official Capacity,
)
Defendants.
)
ORDER
(Filed Sep. 27, 2018)
On the 18th day of July, 2018, a hearing was held
on Plaintiff ’s Motion for Summary Judgment and Defendants’ Counter Motion for Summary Judgement.
Plaintiff appeared by and through counsel of record
Kevin B. Ratliff and Elizabeth A. Price. Defendants appeared by and through counsel of record Benjamin M.
Lepak. The Court, having reviewed the briefs and
heard arguments of counsel, and being fully advised in
the premises, hereby
ORDERS, ADJUDGES, AND DECREES that Plaintiff ’s Motion for Summary Judgment is DENIED, and
Defendants’ Counter Motion for Summary Judgment

App. 29
is SUSTAINED. Specifically, the Court finds and rules
as follows:
1.

While the Court finds the arguments of the plaintiff to be very interesting, the Court finds the rationale set forth by the Second Circuit Court of
Appeals in the case of Mashantucket Pequot Tribe
v. Town of Ledyard, 722 F.3d 457 (2013), to be persuasive.

2.

Accordingly, the Court orders that the State of
Oklahoma’s ad valorem tax statutes are not
preempted or barred by the Indian Trader Statutes, the Indian Gaming Regulatory Act, or pursuant to the balancing test set forth by the United
States Supreme Court in White Mountain Apache
Tribe v. Bracker, found at 448 U.S. 136 (1980).

3.

Therefore, Plaintiffs Motion for Summary Judgment is denied and Defendants’ Countermotion
for Summary Judgment is sustained.
IT IS SO ORDERED.
DATED this 27th day of September, 2018.
/s/ Sheila A. Condren
District Judge

App. 30
APPROVED BY:
/s/ Elizabeth A. Price
Kurt M. Rupert, OBA# 11982
Elizabeth A. Price, OBA#22278
HARTZOG CONGER CASON & NEVILLE, LLP
201 Robert S. Kerr Avenue, Suite 1600
Oklahoma City, Oklahoma 73102-4216
405-235-7000 - Telephone
405-996-3403 – Facsimile
krupert@hartzoglaw.com
eprice@hartzoglaw.com
and
/s/ Kevin B. Ratliff
Kevin B. Ratliff, OBA# 18130
RATLIFF LAW FIRM
1403 Classen Drive
Oklahoma City, Oklahoma 73106
405-228-2017 – Telephone
kratliff@rlfokc.com
ATTORNEYS FOR PETITIONER, Video Gaming
Technologies, Inc
/s/ Benjamin M. Lepak
Benjamin M. Lepak, Assistant District Attorney
Rogers County District Attorney’s Office
200 South Lynn Riggs Blvd.
Claremore, OK 74017
(918) 923-4960 – Telephone
ATTORNEY FOR DEFENDANTS,
Rogers County Board of Tax Roll Corrections;
Rogers County Treasurer; and
Scott Marsh, Rogers County Assessor

App. 31
25 U.S.C. § 2701. Findings
The Congress finds that–
(1) numerous Indian tribes have become engaged in or have licensed gaming activities on
Indian lands as a means of generating tribal governmental revenue;
(2) Federal courts have held that section 81 of
this title requires Secretarial review of management contracts dealing with Indian gaming, but
does not provide standards for approval of such
contracts;
(3) existing Federal law does not provide clear
standards or regulations for the conduct of gaming
on Indian lands;
(4) a principal goal of Federal Indian policy is to
promote tribal economic development, tribal selfsufficiency, and strong tribal government; and
(5) Indian tribes have the exclusive right to
regulate gaming activity on Indian lands if the
gaming activity is not specifically prohibited by
Federal law and is conducted within a State which
does not, as a matter of criminal law and public
policy, prohibit such gaming activity.

App. 32
25 U.S.C. § 2702. Declaration of policy
The purpose of this chapter is–
(1) to provide a statutory basis for the operation
of gaming by Indian tribes as a means of promoting tribal economic development, self-sufficiency,
and strong tribal governments;
(2) to provide a statutory basis for the regulation
of gaming by an Indian tribe adequate to shield
it from organized crime and other corrupting influences, to ensure that the Indian tribe is the
primary beneficiary of the gaming operation, and
to assure that gaming is conducted fairly and
honestly by both the operator and players; and
(3) to declare that the establishment of independent Federal regulatory authority for gaming
on Indian lands, the establishment of Federal
standards for gaming on Indian lands, and the
establishment of a National Indian Gaming Commission are necessary to meet congressional concerns regarding gaming and to protect such
gaming as a means of generating tribal revenue.

